                                                                   Issue Date
                                                                            June 29, 2012
                                                                   Audit Report Number
                                                                                2012-FW-1010




TO:         Regenia Hawkins, Director, Office of Public Housing, 6APH


FROM:       Gerald R. Kirkland
            Regional Inspector General for Audit, Fort Worth Region, 6AGA

SUBJECT: The Housing Authority of the City of Mineral Wells, TX, Had Errors in the
            Administration of Its Recovery Act Public Housing Capital Fund Grant


                                    HIGHLIGHTS

 What We Audited and Why

             To meet the Office of Inspector General’s objective to review funds provided
             under the American Recovery and Reinvestment Act of 2009 and at the U. S.
             Department of Housing and Urban Development’s (HUD) suggestion, we
             reviewed of the Housing Authority of the City of Mineral Wells Public Housing
             Capital Fund Stimulus (formula) Recovery Act funded activities. Specifically,
             our objectives were to determine whether the Authority followed Recovery Act
             rules and regulations when obligating and expending its Recovery Act capital
             funds and reported Recovery Act funds as required.

 What We Found

             Although the Authority used its Recovery Act grant funds for eligible activities, it
             had errors in its obligations, procurements, expenditures, and reporting. The errors
             occurred because the Authority was not familiar with some Recovery Act
             requirements. As a result, it spent $6,400 that it did not obligate or expense in a
             timely manner and an additional $7,745 that it did not properly expense. In addition,
           the Authority’s late and inaccurate reporting defeated the transparency goals of
           the Recovery Act.

What We Recommend

           We recommend that the Fort Worth Director of the Office of Public Housing
           require the Authority to repay $6,400 that it did not obligate in a timely manner
           and repay $7,745 that it improperly expensed or provide other eligible costs.
           HUD should return the ineligible amounts to the U. S. Treasury. HUD should
           also ensure that the Authority has the appropriate training and HUD assistance
           regarding procurement for capital projects.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided the Authority and HUD our draft report on May 30, 2012. We held
           an exit conference on June 5, 2012. We requested the Authority’s written
           response by June 12, 2012 and received it on June 11, 2012. The Authority
           agreed with the report and recommendations. The complete text of the auditee’s
           response, along with our evaluation of that response, can be found in appendix B
           of this report.




                                            2
                          TABLE OF CONTENTS

Background and Objectives                                                 4

Results of Audit
Finding: The Authority Had Errors in the Administration of Its Recovery   5
         Act Grant

Scope and Methodology                                                     9

Internal Controls                                                         10

Appendixes
   A. Schedule of Questioned Costs                                        12
   B. Auditee Comments and OIG’s Evaluation                               13




                                         3
                         BACKGROUND AND OBJECTIVES

The Housing Authority of the City of Mineral Wells, TX, is a governmental entity created by the
City of Mineral Wells, TX. The governing body of the Authority is its board of commissioners,
which consists of five members appointed by the City Council and the mayor of Mineral Wells.
The City hired an executive director to administer the daily affairs of the Authority. The
Authority has 60 public housing units and 235 Housing Choice Voucher program units.
Annually, the Authority receives capital funds via a formula grant from the U. S. Department of
Housing and Urban Development (HUD). The Authority may use its capital funds for
development, financing, modernization, and management improvements for its public housing
developments.

On February 17, 2009, the American Recovery and Reinvestment Act of 2009 became law. The
Recovery Act provided $4 billion for public housing agencies to carry out capital and
management activities, including the modernization and development of public housing. It
allocated $3 billion for formula grants and $1 billion for competitive grants. The Recovery Act
required public housing agencies to obligate 100 percent of the funds within 1 year of the date on
which funds became available to the agency for obligation and expend 60 percent within 2 years
and 100 percent within 3 years of such date.

HUD allocated $114,057 to the Authority for one Recovery Act Capital Fund formula grant.
HUD made the grant available to the Authority on March 18, 2009. The Authority replaced
cabinets and countertops and purchased appliances for its public housing units with the grant. If
the Authority failed to comply with the obligation deadline, HUD was required to recapture
those obligations that did not meet the deadline1 and return the funds to the U. S. Treasury for the
sole purpose of deficit reduction.2 HUD also required the Authority to use its Recovery Act
formula grant on eligible activities already identified in either its annual statement or 5-year
action plan. The HUD approved plans set forth all of the Authority’s physical and management
improvement needs for its public housing developments and must demonstrate the long-term
physical and social viability of proposed projects, including cost reasonableness. If the Authority
decided to undertake work items not in its approved plans, HUD required it to amend its
approved plans.

Our audit objectives were to determine whether the Authority followed Recovery Act rules and
regulations when obligating and expending its Recovery Act Capital funds and reported
Recovery Act funds as required.




1
    Public Law 111-5
2
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (Public Law 111-203) amended the
    Recovery Act, requiring recaptured funds to be returned to the U.S. Treasury and dedicated for the sole purpose
    of deficit reduction.




                                                        4
                                    RESULTS OF AUDIT
Finding: The Authority Had Errors in the Administration of Its
Recovery Act Grant
Although the Authority used its Recovery Act grant funds for eligible activities, it had errors in
regard to obligations, procurement, expenditures, and reporting. The errors occurred because the
Authority was not familiar with some Recovery Act requirements. As a result, it spent $6,400
that it did not obligate or expense in a timely manner and an additional $7,745 that it did not
properly expense. In addition, the Authority’s late and inaccurate reporting defeated the
transparency goals of the Recovery Act.



    The Authority Did Not Obligate
    More Than 5 Percent of Its
    Recovery Act Grant

                 Although the Authority budgeted all of its Recovery Act funds in its annual plan
                 and HUD’s Line of Credit Control System (LOCCS), it did not obligate $6,400,
                 or more than 5 percent, of the funds by the obligation deadline of March 17, 2010.
                 According to HUD’s rules, an obligation occurred when there was a contract.3
                 The Authority accepted a bid for cabinet and countertop replacement totaling
                 $99,912 on February 23, 2010. As this amount exceeded that which the Authority
                 had budgeted, it used $8,260 of its administration fees to accommodate the cost
                 overrun. In addition, the Authority awarded a contract in the amount of $4,600 to
                 oversee the cabinet and countertop replacement. Table 1 shows the amounts (1)
                 budgeted in LOCCS in January 2012 and the Authority’s February 2010 annual
                 statement, (2) reported as contracts in the Authority’s contracting records, and (3)
                 determined not obligated by the Recovery Act deadline.

                 Table 1 Unobligated Recovery Act funds
                                                                                  Allowed-
                  Budget                                             Budgeted    contracted    Unobligated
                 category   Description                               amount      amount        amount
                   1410     Administration fees                        $11,405        $3,145             $0
                             (cost overrun on dwelling structures)                     8,260
                   1430     Fees and cost: architect, engineer,         11,000         4,600         $6,400
                            and reproduction services
                   1460     Dwelling structures                        91,652        91,652              $0
                  Totals                                             $114,057      $107,657          $6,400




3
      HUD Notice 2009-12




                                                       5
The Authority Did Not Properly
Procure Its Contracts

           The Authority did not follow Recovery Act procurement requirements in
           obtaining two contracts. For the contract to replace the cabinets in 57 of its units,
           the Authority did not prepare a cost estimate as required. Instead, it contacted
           several entities seeking bids. When three entities responded with bids that
           exceeded the total amount of Recovery Act funds available, the executive director
           communicated to the bidders that he only had $114,000 in his Recovery Act
           grant. Each bidder submitted a new proposal, but each one bid on a different
           number of units to be repaired. The Authority selected the contractor that could
           repair the greatest number of units for the least cost per unit. In a review, dated
           March 22, 2010, HUD’s Office of Public Housing determined that the Authority
           did not provide a complete bid package. Items missing included required wage
           determinations, small and minority-owned business considerations, instructions to
           bidders, and assurance that there was no conflict of interest in the procurement.
           HUD cleared the deficiencies on November 16, 2010.

           An additional contract to oversee the cabinet installations in the amount of $4,600
           was obtained by the Authority. The Authority could not show that the contractor
           selection was competitive or the cost was reasonable. HUD did not question this
           procurement but rejected the Authority’s LOCCS reimbursement due to budget
           issues.

           The contracting errors occurred because the Authority did not have the
           procurement knowledge necessary to comply with Recovery Act requirements.
           The executive director said that in the past, he had relied on an architect for
           capital procurement projects; however, he stated that HUD had advised the
           Authority that an architect was not required to replace cabinets and countertops.
           HUD stated that it did not advise the executive director regarding the architect.
           Neither HUD nor the Authority provided documentation pertaining to discussions
           regarding hiring an architect.

The Authority Could Not
Support Some of Its Expenses

           The Authority could not support some of its expenses due to its substituting
           appliance purchases in 2012 for other planned and budgeted costs. In September
           2010, HUD denied the Authority’s LOCCS request to pay $6,356 for inspection
           costs and salary costs for contract oversight due to budget issues. As a result, the
           Authority had unspent Recovery Act funds totaling $14,145 in January 2012.




                                             6
              The executive director expressed his frustration with HUD and the Recovery Act
              requirements. He indicated that he wanted to return the remaining funds but at
              HUD’s suggestion in 2012, the Authority revised its Recovery Act annual
              statement and purchased appliances for some of its units with all of the remaining
              funds. However, the obligations were not interchangeable. Further, an obligation
              occurs when an order is placed or goods or services are received. Because the
              $14,145 in appliance purchases occurred after the March 17, 2010, obligation
              deadline, the Authority’s expense was improper. Table 2 summarizes the
              amounts the Authority improperly expensed.

             Table 2: Schedule of amounts improperly expensed
                                                                        Expenses     Expense
               Budget                                      Budgeted      rejected    allowed     Improperly
              category Description                          amounts      by HUD      by HUD       expensed
              1410        Administration fees                $11,405        $3,145    $8,260*        $3,145
              1430        Fees and cost (inspection fees)     11,000         3,211           0       11,000
              Totals                                         $22,405        $6,356      $8,260      $14,145
             * Cost overrun on cabinet and countertop replacement contract

              If the Authority paid $3,145 in administrative costs related to overseeing the
              Recovery Act grant and $11,000 in eligible fees and costs, it can seek
              reimbursement for those costs, if it obligated such costs before the deadline. If
              the Authority cannot provide valid and eligible expenses, the amount should be
              repaid to HUD and returned to the U. S. Treasury.


The Authority’s Reporting Was
Missing or Late for Some
Reporting Periods

              The Authority missed the first reporting period ending September 30, 2009, in
              Recovery.gov, one reporting period in 2010, and one reporting period in 2011. In
              addition, the Recovery.gov reporting site improperly reflected the description of
              work as “finish carpentry contractors” instead of the actual project of cabinet and
              countertop replacement. The executive director stated that the reports were late
              because he had difficulty with the Recovery.gov system and had difficulty finding
              someone at the reporting system help desk that could assist him. The Authority’s
              late and inaccurate reporting defeated the transparency goals of the Recovery Act.

Conclusion

              The Authority had deficiencies in the administration of its Recovery Act grant.
              Although the Authority was successful in obtaining needed improvements to its
              housing units, it made errors in procuring its contracts and obligating, expending,
              and reporting funds. According to the Fort Worth Director of the Office Public




                                                     7
          Housing, her office provided training and technical assistance to the Authority.
          Despite this, the Authority made errors because it was not familiar with or did not
          understand some Recovery Act requirements and it followed a suggestion made
          by HUD. As a result, the Authority spent $6,400 that was not obligated or
          expensed in a timely manner and an additional $7,745 that was not properly
          expensed.

Recommendations

          We recommend that the Fort Worth Director of the Office of Public Housing require
          the Authority to

          1A. Repay $6,400 in 2009 Recovery Act funds to HUD, which will return the
              funds to the U. S. Treasury.

          1B. Repay $7,745 in 2009 Recovery Act funds to HUD, which will return the
              funds to the U. S. Treasury, or provide eligible costs that it obligated and
              expensed before the deadlines.

          1C. Improve its internal controls over procurement.

          1D. Ensure that the Authority’s staff obtains training in Capital Fund
              procurement and contract administration.




                                           8
                        SCOPE AND METHODOLOGY

We conducted our audit work at the Authority’s administrative office in Mineral Wells, TX, and
at HUD’s Office of Public Housing and the Office of Inspector General’s office in Fort Worth,
TX. We performed our audit work between January and April 2012. The audit generally
covered the period March 18, 2009, to January 11, 2012. We limited our scope to the Recovery
Act Capital Fund formula grant.

To accomplish our objectives, we performed the following steps as they related to the
Authority’s Recovery Act Capital Fund formula grant:

       x   Reviewed relevant laws, regulations, and HUD guidance.
       x   Reviewed the Authority’s board of commissioners’ resolutions.
       x   Reviewed the Authority’s procurement procedures.
       x   Reviewed the Authority’s audited financial statements for fiscal years 2009 and 2010.
       x   Reviewed the Authority’s Recovery Act Capital Fund formula grant agreement,
           annual plan, and 5-year action plan.
       x   Reviewed the Authority’s procurement records and environmental review.
       x   Traced obligations and project costs from procurement through LOCCS drawdown of
           funds for contracts procured with the Recovery Act formula grant funds to determine
           whether the Authority obligated and expensed amounts in a timely manner. We did
           not evaluate the reliability of the LOCCS data as we used it for information purposes
           only.
       x   Reviewed 100 percent of expenditures made to ensure that disbursements were
           adequately supported.
       x   Interviewed Authority staff to determine procurement, contract, accounts payable,
           and reporting procedures.
       x   Reviewed the Authority’s Recovery Act reporting to determine whether its
           Recovery.gov reports were complete, accurate, and submitted in a timely manner.
       x   Conducted site visits of and photographed representative units reflecting the
           Authority’s use of formula grant funds.
       x   Interviewed HUD Office of Public Housing staff in Fort Worth, TX.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                               9
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   x   Effectiveness and efficiency of operations,
   x   Reliability of financial reporting, and
   x   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objectives:

                      x   Effectiveness and efficiency of operations,
                      x   Reliability of financial reporting, and
                      x   Compliance with applicable laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal controls exists when the design or operation of a control
               does not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency


               Based on our review, we believe the following item is a significant deficiency:




                                                10
x   The Authority did not have a control system in place to ensure that its
    Recovery Act capital project was procured according to requirements
    (finding 1).




                              11
                                       APPENDIXES

Appendix A

                    SCHEDULE OF QUESTIONED COSTS

                           Recommendation number              Ineligible 1/

                                       1A                           $6,400
                                       1B                            7,745

                                       Total                      $14,145




1/ Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
   that the auditor believes are not allowable by law; contract; or Federal, State, or local policies
   or regulations.




                                                 12
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                          Auditee Comments

                                  MINERAL WELLS HOUSING AUTHORITY
                                             P.O. BOX 177
                                      MINERAL WELLS, TEXAS 76068

             Public Housing Office
             200 NE 27th Street
             Ph: (940) 325-3327
             Fax: (940) 325-6852

             June 11, 2012

             Gerald R. Kirkland
             Regional Inspector General for Audit
             U.S. Department of Housing and Urban Development
             Region VI, Office of Inspector General
             819 Taylor Street, Suite 13A09
             Fort Worth, Texas 76102

             Subject: The Housing Authority of the City of Mineral Wells, TX, Had Errors in the
             Administration of Its Recovery act Public Housing Capital Fund Grant

             Dear Mr. Kirkland:

             In response to the report, I relied on the guidance I received from the HUD Office of Public
Comment 1    Housing in administering the recovery act Public Housing Capital Fund Grant program
             without errors. However, due to miscommunications between my office and HUD’s, technical
             difficulties with the reporting sites (Federalreporting.gov and Ramps), and difficulty
             understanding the program requirements, errors were made.

             As Executive Director of the Mineral Wells Housing Authority, I certify that all future Capital
             Fund programs will be properly administered. I have recently received procurement training
             and handbook documents from Gary kuusisto with the HUD’s Office of Public Housing. I will
             await further instructions from the HUD’s Office of Public Housing as to how I will proceed
             with returning the funds to the U.S. Treasury.

             If you have any questions, please contact me at 940-325-3327.

             Sincerely,

             Harry Small, Jr.
             Executive Director




                                                  13
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority agreed errors occurred, and stated it was working to correct errors
            in its future capital projects. The executive director also stated that he has
            received training. Further, the Authority was waiting for instructions as to how to
            return the money to Treasury. We acknowledge the Authority’s statements and
            encourage it to work with HUD to seek final resolution of the recommendations.




                                            14
